               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                 Controls to Detect
                 Money Order Fraud

                       Audit Report




                                              February 7, 2013

Report Number DP-AR-13-002
                                                                       February 7, 2013

                                              Controls to Detect Money Order Fraud

                                                         Report Number DP-AR-13-002




BACKGROUND:
The U.S. Postal Service sells domestic       manner. Specifically, the Postal Service
and international money orders for a fee     does not sufficiently monitor money
in values of up to $1,000. Money orders      order transactions at retail units and
are sequentially numbered financial          make investigative referrals of potential
instruments that must be safeguarded         fraud. Further, Postal Service personnel
due to their potential use in                do not provide information to district
embezzlement and money laundering            management to identify questionable
schemes. Customers purchase money            activity, such as potential misuse of
orders using cash, debit cards, or           Postal Service funds. The OIG has
travelers checks as a convenient and         detected a substantial number of
safe method to transfer cash or make         embezzlement cases since FY 2010,
payments. In fiscal year (FY) 2012, fees     not detected by Postal Service controls.
from money order sales generated             Without adequate monitoring of money
$129 million in revenue.                     order transactions by management,
                                             abuses, errors, and misappropriation of
The Postal Service performs a monthly        Postal Service assets may go
reconciliation of the cashed amount and      undetected.
the face value of the sold money order.
During FYs 2010 through 2012,                The Postal Service is designing a
reconciliation differences averaged          program to analyze money order activity
$2.1 million annually. During that same      to improve the reconciliation process,
period, the U.S.Postal Service Office of     detect fraud and communicate results to
Inspector General’s (OIG) Office of          district and area management and the
Investigations completed 136 money           OIG.
order embezzlement cases resulting in
the removal, arrest, and/or prosecution      WHAT THE OIG RECOMMENDED:
of Postal Service employees.                 We recommended management monitor
                                             money order reconciliation transactions
Our objective was to determine whether       and develop a program to analyze and
money order controls are sufficient to       communicate questionable money order
detect fraud in a timely manner.             activity to district management and the
                                             OIG, as appropriate, for review and
WHAT THE OIG FOUND:                          corrective action.
Postal Service money order controls are
not sufficient to detect fraud in a timely   Link to review the entire report
February 7, 2013

MEMORANDUM FOR:            TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Controls to Detect Money Order Fraud
                           (Report Number DP-AR-13-002)

This report presents the results of our audit of Controls to Detect Money Order Fraud
(Project Number 12BG024FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Corporate Audit and Response Management
Controls to Detect Money Order Fraud                                                                               DP-AR-13-002




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Timely Detection of and Response to Fraud Indicators ................................................... 2

   Communication Between the Accounting Service Center and Area and District
    Management ............................................................................................................ 4

   Responsibility for Monitoring for Fraud ........................................................................ 5

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Management's Comments ........................................................................ 10
Controls to Detect Money Order Fraud                                                                  DP-AR-13-002



Introduction

This report presents the results of our audit of controls to detect money order
fraud (Project Number 12BG024FF000). Our objective was to determine whether
money order controls are sufficient to detect fraud in a timely manner. This
self-initiated audit addresses financial risk. See Appendix A for additional
information about this audit.

The U.S. Postal Service sells domestic and international postal money orders as
a safe and convenient method for customers to make payments or to transfer
cash. They are controlled by serial numbers and contain other security design
features1 which make them among the most secure financial instruments in the
world. Available for purchase at postal retail units, they are sold for a fee in
values of up to $1,000;2 however, customers must use cash, debit cards, or
travelers checks to purchase a money order. Our audit focused on money orders
used as an instrument for fraud schemes and embezzlements. The U.S. Postal
Service Office of Inspector General (OIG) also audits the Postal Service’s
compliance with the Bank Secrecy Act to combat money laundering since money
orders can be used as an instrument for money laundering.

During fiscal years (FY) 2010 through 2012, sales generated, on average,
$135 million of revenue in fees for postal money orders, with a cash face value of
about $22.4 billion. The St. Louis, MO Accounting Service Center (ASC)
maintains and reconciles the database of all postal money order transactions
with the Federal Reserve Bank’s (FRB) record of cashed money orders every
month. The ASC researches errors such as system unmatched items,
counterfeits, and raised values3 and takes appropriate action. This includes
charging the commercial bank or FRB for the difference between the cashed
amount and the stated value on the money order or creating an expense back to
the postal retail unit where the postal money order was sold. In the past 3 years,
this money order reconciliation process has resulted in an average annual
expense to the Postal Service of $2.1 million. These expenses may also occur
due to data transmission problems or clerical errors and may not be the result of
fraudulent employee activity. However, it is incumbent on the local unit to
research and resolve these expenses. During the same period, money order
fraud investigations conducted by the OIG have resulted in 136 employee
removals, arrests, or prosecutions.4



1
  These include a repeating watermark of Benjamin Franklin and a verticial, multi-colored thread with
alternating horizontal dark and light bars and the letters ‘USPS’ repeating backward and forward throughout
the thread.
2
  Domestic postal money orders are sold in values of up to $1,000, and international postal money orders
are sold in values of up to $700.
3
  Postal money orders purchased for a small amount but altered and cashed for a significantly higher value.
4
  Our audit did not include investigations conducted by the U.S. Postal Inspection Service on fraudulent
money order activity committed externally to the Postal Service.
                                                        1
Controls to Detect Money Order Fraud                                                                   DP-AR-13-002



Conclusion

Postal Service money order controls are not sufficient to detect fraud in a timely
manner. Specifically, the Postal Service does not use available data to
sufficiently monitor postal retail unit money order transactions for potential
fraudulent employee activity and make investigative referrals of potential fraud.
Further, the ASC provides notification to postal retail units of expenses that result
from unreconciled money order differences, yet district management gets no
further analysis or communication to evaluate these differences for potentially
fraudulent money order activity. Although internal controls are a management
activity, Postal Service personnel believed that monitoring for fraud was primarily
the responsibility of the OIG. We also noted 25 districts containing one or more
offices with recently completed or ongoing money order investigations.
Additionally, we made two new referrals for investigation initiated by our office.
Without adequate monitoring of money order transactions, abuses, errors, and
misappropriation of Postal Service assets may go undetected.

During our audit, the Postal Service recognized that increased analysis of money
order activity would improve the reconciliation process and potentially detect
fraudulent activity for referral to the OIG. The Postal Service is designing a
program to analyze money order activity, detect fraud, and communicate results
to district and area management to identify and correct problems with money
order sales and reporting.

Timely Detection of and Response to Fraud Indicators

The Postal Service does not use available data to sufficiently monitor postal retail
unit money order transactions for potential fraudulent employee activity and
make investigative referrals of potential fraud. Although the Postal Service
identifies counterfeit and fraudulently cashed money orders and money orders
with a raised value during the reconciliation of account balances to detailed data
reports, it could do more to detect employee misconduct. Our analysis of money
order activity shows that risk indicators exist in available data that deserve further
examination by management.

We found the Postal Service could enhance its processes by performing
additional analysis. We evaluated Accounting Data Mart (ADM)5 data for
FYs 2010 through 2012 to identify potential money order problems and found risk
indicators of potential fraudulent activity in the existing financial data, including:

   Recurring months of money order expenses at 582 units per year.
   Unresolved financial differences6 of $1,000 or greater at 1,364 units per year.


5
  This is the repository for all accounting and financial data for the Postal Service.
6
  Financial differences occur during the process of reconciling amounts reported by units to amounts
reported by banks to the Postal Service for money orders, bank deposits, and credit and debit card activity.

                                                      2
Controls to Detect Money Order Fraud                                                                    DP-AR-13-002



   Cumulative retail unit shortages7 of $1,000 or greater at 2,250 units per year.
   High numbers of sequentially omitted money orders at 315 units per year.

A high number of sequentially omitted money orders may also indicate activity
other than the occasional clerical error. These indicators suggest a pattern of
questionable activity or inadequate oversight at the unit level and may warrant
further attention by the Postal Service.8 For example, we found that employee
money order embezzlement cases occur over the course of many months.
Additionally, the Postal Service may find other risk factors worth considering,
including employee disciplinary actions, employee turnover, and customer
complaints. Evaluation of these in connection with the financial risk indicators
identified above may help further pinpoint patterns of potentially fraudulent
activity.

We analyzed about 78,000 money order expenses for FYs 2010 through 2012
occurring at over 11,000 units to identify data trends requiring additional analysis
by the Postal Service and possible referral to the OIG. Units must research and
resolve expenses timely; therefore, we found units with 3 or more months of
expenses was a strong indicator of questionable activity and inadequate
oversight. We identified 815 units9 with 3 or more months of expenses and a net
financial shortage of $1,000 or greater. Based on our analysis, we noted
25 districts containing one or more offices with recently completed or ongoing
investigations. Additionally, we made two new investigative referrals based on
missing supporting documentation, high instances of money orders issued out of
sequence, voided money orders that were later cashed, and inadequate
oversight of financial differences.

In addition to the data we used in developing these risk indicators, the ASC
maintains information on money orders that are cashed before the sales date.
The ASC takes no action if the cashed value of a money order matches the value
for which the Postal Service sold it. However, this data may indicate a kiting
scheme where an employee takes Postal Service funds for their personal use
and may replace those funds in the future. The Postal Service should refer
indicators of potential kiting for investigation because many of the 136 OIG
investigations conducted over the past 3 years are the result of kiting schemes,
where a Postal Service employee does not report a money order sale until after
the item is cashed.




7
  Variances outside of Postal Service-established tolerance levels for required quarterly and annual counts
of stamp stock and cash accountabilities.
8
  The existence of one or more red flags does not necessarily mean fraud exists, only that an area may
deserve further attention.
9
  There were a total of 35,756 Postal Service units, representing post offices, stations, branches, contract
postal units, and community post offices as of September 30, 2011.

                                                      3
Controls to Detect Money Order Fraud                                                 DP-AR-13-002



Recent examples include:

      An embezzlement in which 231 money orders, totaling over $51,000, were
       recorded as being sold on a date that occurred after the date they were
       cashed.

      An embezzlement in which an employee reported a money order(s) as being
       sold 1 to 2 weeks after their original issuance date or issuing a money
       order(s) without receiving payment.

      An embezzlement in which 105 money orders, totaling over $14,000, were
       cashed without being reported in the accounting system as being sold.

The Postal Service may timely identify these and other undetected money order
schemes by analyzing available data for potential fraudulent employee activity
and, as appropriate, make investigative referrals of potential fraud.

Communication Between the Accounting Service Center and Area and District
Management

The ASC provides monthly notification to postal retail units through Enterprise
Data Warehouse (EDW)10 reports of money order expenses. These reports
disclose unreconciled money order differences from the cashed value to the
recorded sales amount. However, the ASC does not communicate these results
to area or district management. Additionally, the ASC could communicate
analyses to area and district management regarding the unreconciled money
order differences. As discussed previously, this may include potentially fraudulent
money order activity, such as recurring expenses or money orders cashed before
they are reported as being sold.

Most district finance managers stated that organizational staffing changes over
the past few years have left them without the resources to complete any type of
in-depth financial analysis of retail units. As a result, they rely on area field
financial specialists to remediate expenses as part of their reviews of outstanding
financial differences. District finance managers suggested that increased
communication from the ASC would be beneficial in identifying potential
problems. For example, many smaller postal retail units record financial
transactions manually and report the results at the close of business through the
use of the electronic Money Order Voucher Entry System (eMOVES).11
Nationally, the Postal Service has 16,520 of these offices, which are traditionally
staffed by one employee. Our analysis of 136 OIG money order investigations
shows that 102, or 75 percent, occurred at eMOVES offices over the last 3 fiscal



10
     This is an organization-wide data storage and reporting system.
11
     A web-based system for transmitting financial data to the accounting systems.

                                                       4
Controls to Detect Money Order Fraud                                                                   DP-AR-13-002



years. We discussed with one district their recently completed Lean Six Sigma12
project to standardize financial reporting at eMOVES offices. The Lean Six
Sigma project identified the risk of loss associated with money orders and
embezzlement of funds at eMOVES offices within the district.13 Subsequently,
the district is now performing financial audits at all eMOVES offices twice each
fiscal year to improve financial performance and reduce the risk of loss of Postal
Service assets.

Responsibility for Monitoring for Fraud

Postal Service personnel at the ASC stated that it was their understanding that
monitoring for fraud was the OIG’s responsibility. However, Postal Service
guidance states that field and headquarters unit managers are expected to
maintain a strong internal control posture within the Postal Service. This includes
continual monitoring of transactions to ensure compliance with policies and
procedures and safeguarding Postal Service assets from loss.14 In addition,
Postal Service standards of conduct require allegations of violations of postal
laws by postal employees be reported immediately to the OIG.15 As a result of
not monitoring money order activity, the Postal Service did not detect employee
misconduct resulting in 136 OIG investigations of money order embezzlements
and misappropriation of funds.16 In one instance, a recently retired ASC
employee discussed questionable money order activity at retail units with the
OIG, but there have been no referrals from the ASC to the OIG.

During our audit, the ASC recognized that increased analysis of money order
activity and communication with district management would improve the
reconciliation process and potentially detect fraudulent activity. The ASC is
currently in the process of designing the program elements, including
collaborating with the St. Louis, MO ASC’s General Accounting Branch and Field
Sales Branch17 and communicating with district and area management to identify
and correct problems with money order sales and reporting. As a result, in
October 2012, the ASC provided area accounting managers with a list of offices
with potential money order problems based on their reconciliation process.




12
   A business methodology to improve process efficiencies and quality improvements by focusing on
continuous improvements in an effort to reduce costs and waste.
13
   The Sacramento District completed a project titled Financial Transparency at Non-POS Units. The
project's stated problem was that there was no transparency at eMOVES offices for compliance with
financial reporting requirements, resulting in untimely reporting, inaccurate documentation, and creative
financial accountability.
14
   Handbook F-1, Accounting and Reporting Policy, dated March 2011.
15
   Employee Labor and Relations Manual (ELM-32), Section 665.14, dated August 2012.
16
   OIG criminal investigators initiated and developed these cases based on their analysis of money order
data, including money orders cashed before being reported as sold.
17
   The General Accounting Branch handles the money order reconciliation process and the Field Sales
Branch collects and processes financial sales data from postal retail units.

                                                     5
Controls to Detect Money Order Fraud                                           DP-AR-13-002



Recommendations

We recommend the vice president, controller:

1. Direct the St. Louis, MO Accounting Service Center to monitor money order
   reconciliation transactions.

2. Develop a program to analyze questionable money order activity and
   communicate the results to district management for review and corrective
   action.

3. Where appropriate, refer questionable or potentially fraudulent activity to the
   Office of Inspector General’s Office of Investigations.

Management’s Comments

Management agrees with the findings and recommendations and will complete
corrective action by May 1, 2013. They will continue to monitor all money order
transactions and are automating the money order system to include a more
formal review of unreported and unreconciled money orders. Additionally,
management initiated a Lean Six Sigma project in January 2013 to review the
money order process for mitigating fraud and to analyze questionable activity for
better communication with district management. Finally, management will
continue to notify the OIG of any potential fraud. Management met with an OIG
representative on December 19, 2012, to establish a closer working relationship.
See Appendix B for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the
recommendations and corrective actions taken and planned should resolve the
issues identified in the report.




                                         6
Controls to Detect Money Order Fraud                                                                     DP-AR-13-002




                             Appendix A: Additional Information

Background

Customers can purchase postal money orders from any Post Office™ location in
the U.S. Postal money orders are accountable paper that must be safeguarded
at all times to prevent unauthorized use and to protect the integrity of the money
order system. They are issued in blocks of 100 and are sequentially numbered.
Retail associates are trained to issue money orders in ascending order. There
are two types of postal money orders: domestic, which are sold for any amount
up to $1,000; and international, which are sold for any amount up to $700. Both
are sold for a fee ranging from $1.15 to $4.45, depending on the type and face
value.

In FY 2012, the Postal Service recorded revenue of $129 million in fees from
domestic and international money order sales of $21.9 billion and $47.3 million,
respectively. In FY 2011, the domestic and international money order sales
totaled $22.4 billion and $54.9 million, respectively, and accounted for $133
million of Postal Service revenue.

Postal money orders hold no value until they are sold, and a liability is created
when the Postal Service accepts funds from customers, which must be
recognized until the money order has been cashed. The St. Louis ASC General
Accounting Branch is responsible for reconciling domestic and international
money order records. During the monthly reconciliation process, the General
Accounting Branch compares and reconciles the outstanding money order
liability account in the ADM system that holds the sales information with the
cashing activity records sent by the FRB in the Money Order Database.18

The General Accounting Branch identifies counterfeit, fraudulently cashed, and
raised money orders from the Money Order Database. Any differences between
the cashed value and the sold value are expensed to the commercial bank that
cashed the money order or FRB and included in a monthly summary report to the
U.S. Postal Inspection Service. Additionally, the Postal Service reviews all
transactions in the Money Order Database for compliance with the Bank Secrecy
Act.19

Money order expense adjustments to the postal retail unit are a result of the
money order reconciliation process.20 Expense adjustment reports are provided
to postal retail units on a monthly basis as a part of the consolidated EDW
Narrowcast money order expense report. Each postal retail unit is responsible for

18
   The system used to record all information on money orders sold, cashed, or spoiled.
19
   A set of laws to deter, detect, and report activity related to money laundering and terrorist activities.
20
   The General Accounting Branch makes entries in the accounting records by crediting overage amounts
using Account Identifier Code (AIC) 247 and debiting shortages in AIC 647.

                                                      7
Controls to Detect Money Order Fraud                                                                   DP-AR-13-002



researching and clearing their money order expenses. This includes submitting a
request to the ASC within 30 days of the date of notification to offset the
expense.21

Objective, Scope, and Methodology

Our objective was to determine whether money order controls are sufficient to
detect fraud in a timely manner. To accomplish our objective, we:

    Discussed money order controls, the reconciliation process, and procedures
     for identifying potential fraud with personnel at the St. Louis ASC. We inquired
     about the extent of communicating with field offices about reconciliation
     results as well as fraud referrals to the OIG’s Office of Investigations (OI).

    Reviewed Postal Service policies, procedures, and instructions for monitoring
     and reconciling money order expenses.

    Obtained financial data from the Postal Service’s EDW, ADM, and web Bank
     Secrecy Act application.22

    Judgmentally selected five postal retail units in the Greater Boston,
     Cincinnati, and Philadelphia Metropolitan districts. We used risk factors such
     as recurring money order expenses, unresolved financial differences, and
     stock and/or cash shortages when selecting these five units. We traced
     money order expenses to supporting documentation and discussed controls
     at these local units.

    Reviewed OI listings of FY 2010 through 2012 money order investigations
     and interviewed investigators with experience in crimes involving money
     orders about case initiation, fraud referrals, current monitoring procedures,
     and additional measures that could enhance detection of questionable or
     potentially fraudulent activity.

    Discussed with area accounting personnel and 44 of 67 district finance
     managers money order controls and risks, including differences in reporting
     technologies, financial risk analysis, and communication with the ASC.

We conducted this performance audit from May 2012 through February 2013 in
accordance with generally accepted government auditing standards and included
such tests of internal controls as we considered necessary under the
circumstances. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the

21
  Units submit a Postal Service Form 800-B, Money Order Expense Adjustment Request, to the ASC.
22
  This system is designed to aid in compliance with federal laws and regulations related to the detection and
reporting of suspicious money order activity.

                                                     8
Controls to Detect Money Order Fraud                                                                DP-AR-13-002



evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. We discussed our observations and conclusions
with management on December 13, 2012, and included their comments where
appropriate.

We assessed the reliability of money order expense data by testing a sample of
transactions to supporting documentation and determined the data were
sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG report titled Controls Over Money Orders (Report
Number FT-AR-10-009, dated February 22, 2010) found that money order
replacement checks were issued without proper documentation and outstanding
money order liabilities were overstated because money orders were not
escheated23 after 2 years of issuance as required. Management agreed with the
findings and recommendations, including a monetary impact of $367,550.




23
   This process recognizes revenue and removes the Postal Service liability for money orders not cashed
after 2 years from the date of issuance and after meeting certain other criteria.

                                                    9
Controls to Detect Money Order Fraud                       DP-AR-13-002



                       Appendix B: Management's Comments




                                       10
Controls to Detect Money Order Fraud        DP-AR-13-002




                                       11
